                            OFFICE OF
                     THE INSPECTOR GENERAL


                         U.S. NUCLEAR
                    REGULATORY COMMISSION


                      Accountability and Control Over
                         NRC’s Noncapitalized IT
                               Equipment


                       OIG-01-A-10         June 1, 2001




                    AUDIT REPORT




All publicly available OIG reports (including this report) are accessible through
                               NRC’s website at:
                     http://www.nrc.gov/NRC/OIG/index.html
                                             June 1, 2001




MEMORANDUM TO:                William D. Travers
                              Executive Director for Operations



FROM:                         Stephen D. Dingbaum/RA/
                              Assistant Inspector General for Audits


SUBJECT:                      REVIEW OF ACCOUNTABILITY AND CONTROL OVER NRC’S
                              NONCAPITALIZED IT EQUIPMENT (OIG-01-10)


Attached is the Office of the Inspector General’s audit report titled, Review of Accountability and
Control Over NRC’s Noncapitalized IT Equipment.

This report reflects the results of our review of specific aspects of NRC’s property management
program. The review determined that NRC’s property management policies adhere to
applicable laws and regulations; however, management controls to implement these policies
are inadequate or lacking. In addition, the computer system that functions as the official
database for the agency’s property transactions contains inaccurate information. As a result,
improved management controls are needed to better safeguard agency equipment.

At an exit conference on May 22, 2001, NRC officials stated general agreement with the
report’s findings and recommendations. They also suggested several report revisions, which
were incorporated where appropriate.

If you have any questions, please contact Tony Lipuma at 415-5910 or me at 415-5915.

Attachments: As stated

cc:     John Craig, OEDO
R. McOsker, OCM/RAM
B. Torres, ACMUI
B. Garrick, ACNW
D. Powers, ACRS
J. Larkins, ACRS/ACNW
P. Bollwerk III, ASLBP
K. Cyr, OGC
J. Cordes, OCAA
S. Reiter, Acting CIO
J. Funches, CFO
P. Rabideau, Deputy CFO
J. Dunn Lee, OIP
D. Rathbun, OCA
W. Beecher, OPA
A. Vietti-Cook, SECY
W. Kane, DEDR/OEDO
C. Paperiello, DEDMRS/OEDO
P. Norry, DEDM/OEDO
M. Springer, ADM
R. Borchardt, NRR
G. Caputo, OI
P. Bird, HR
I. Little, SBCR
M. Virgilio, NMSS
S. Collins, NRR
A. Thadani, RES
P. Lohaus, OSP
F. Congel, OE
M. Federline, NMSS
R. Zimmerman, RES
J. Johnson, NRR
H. Miller, RI
L. Reyes, RII
J. Dyer, RIII
E. Merschoff, RIV
OPA-RI
OPA-RII
OPA-RIII
OPA-RIV
                                         Accountability and Control Over NRC’s Noncapitalized IT Equipment


EXECUTIVE SUMMARY


       BACKGROUND

               Official U.S. Nuclear Regulatory Commission (NRC) property records are
               maintained in an online interactive computer system that functions as the official
               database for the agency’s property transactions. The Division of Contracts and
               Property Management, Office of Administration, manages the property and
               supply system (PASS). PASS accounts for more than 27,000 pieces of
               noncapitalized equipment1 with an acquisition cost of approximately $75 million.
               Of these totals, noncapitalized information technology (IT) equipment is
               approximately 16,000 pieces with an acquisition cost of approximately $51
               million.

       PURPOSE

               The objectives of the audit were to determine whether the NRC’s (1) policies
               governing the accountability and control over agency noncapitalized IT
               equipment adhere to applicable laws and regulations; (2) official database for
               property transactions reflects accurate information for noncapitalized IT
               equipment; and (3) property management program has adequate safeguards to
               deter and prevent loss through fraud, waste or misuse.

       RESULTS IN BRIEF

               NRC’s property management policies for noncapitalized IT equipment adhere to
               applicable laws and regulations, such as the Federal Property Management
               Regulations. However, management controls to implement these policies are
               inadequate or lacking. Also, PASS contains inaccurate information and
               improved management controls are needed to better safeguard agency
               equipment.

               PASS Data Is Not Accurate

               Statistical projections show that PASS does not accurately reflect the location of
               as many as 3,571 items of noncapitalized IT equipment (at headquarters and
               Region I) costing approximately $8.38 million. Furthermore, 526 items of IT
               equipment are missing from the Office of the Chief Information Officer’s (OCIO)
               mini-warehouse. PASS does not accurately reflect the location of noncapitalized
               IT equipment because accountability of property custodians is limited.
               Inaccurate location information in PASS (1) can result in the unnecessary
               purchase of equipment, and (2) is a contributing cause for costly unofficial



       1
         Noncapitalized equipment represents NRC property (either in the agency’s possession or
contractor-held) with an initial acquisition cost of less than $50,000.

                                                  i
                                            Accountability and Control Over NRC’s Noncapitalized IT Equipment

                supplemental property management systems. PASS location inaccuracies result
                in a heightened potential for fraud and misuse of agency equipment.

                Additionally, a comparison of the two PASS sensitive item designation fields
                revealed a 15 percent error rate. A secondary sensitive item indicator is
                inaccurate and inconsistent, placing accountability for sensitive items2 (including
                81 laptop computers) in jeopardy and heightening the vulnerability of sensitive
                equipment to fraud or misuse. As a result, NRC may not physically recover all
                sensitive property assigned to employees that leave the agency.

                Property Management Program Needs Improved Safeguards

                NRC’s management controls are not adequate or are lacking regarding (1)
                Security Incident Reports3, (2) separated employees’ PASS accounts, (3)
                separation of duties, (4) physical inventory procedures, and (5) the Handbook for
                Property Custodians. For example, only four Security Incident Reports were filed
                since January 1999 despite the fact that 117 items are missing from the fiscal
                year 2000 inventory. Additionally, 526 items, not subject to inventory, are
                missing from the OCIO mini-warehouse. Without Security Incident Reports,
                recovery of missing items is unlikely.

        RECOMMENDATIONS

                This report makes 14 recommendations to the Executive Director for Operations
                to improve the property management program. Eight recommendations are
                made to improve the accuracy of PASS information and six recommendations
                address inadequate or lacking management controls.

        AGENCY COMMENTS

                At an exit conference on May 22, 2001, NRC officials stated general agreement
                with the report’s findings and recommendations. They also suggested several
                report revisions which were incorporated where appropriate.




        2
           Equipment that is desirable for personal use and can be easily removed from the premises
(e.g., laptop computers, cell phones).
        3
           Security Incident Reports are used to report missing/stolen property and serve as the basis for
notifying the OIG.



                                                    ii
                              Accountability and Control over NRC’s Noncapitalized IT Equipment


ABBREVIATIONS AND ACRONYMS

    ADM     Office of Administration
    DCPM    Division of Contracts and Property Management
    FY      Fiscal Year
    GAO     U. S. General Accounting Office
    IT      Information Technology
    JFMIP   Joint Financial Management Improvement Program
    MD      Management Directive
    NRC     U. S. Nuclear Regulatory Commission
    OCIO    Office of the Chief Information Officer
    OIG     Office of the Inspector General
    PASS    Property and Supply System
    SIH     Sensitive Item Holders
    SIR     Security Incident Report
    UCL     Upper Confidence Limit




                                       iii
       Accountability and Control over NRC’s Noncapitalized IT Equipment




[Page intentionally left blank.]




              iv
                                                  Accountability and Control Over NRC’s Noncapitalized IT Equipment


TABLE OF CONTENTS

    EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


    ABBREVIATIONS AND ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii


    I. BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


    II. PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


    III. FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4


              A. PASS DATA IS NOT ACCURATE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
              B. PROPERTY MANAGEMENT PROGRAM NEEDS IMPROVED SAFEGUARDS . . . . . . . 11


    IV. OTHER RELATED MATTERS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


    V. CONSOLIDATED LIST OF RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . 17


    VI. AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


    APPENDIX


    A.        SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21




                                                             v
       Accountability and Control Over NRC’s Noncapitalized IT Equipment




[Page intentionally left blank.]




               vi
                                            Accountability and Control Over NRC’s Noncapitalized IT Equipment


I. BACKGROUND

                 The Federal Property Management Regulations and other applicable laws and
                 regulations require the U.S. Nuclear Regulatory Commission (NRC) to establish
                 and apply standards and procedures for using and controlling property. The
                 proper stewardship of Federal resources is an essential responsibility of agency
                 managers and staff. Office of Management and Budget Circular A-123, revised,
                 Management Accountability and Control, establishes guidance to improve the
                 accountability and effectiveness of Federal programs by establishing, assessing,
                 correcting, and reporting on management controls. An agency’s internal controls
                 (a subset of management controls) are used to prevent or detect unauthorized
                 acquisition, use, or disposition of an agency’s assets.

                 NRC Management Directive (MD) 13.1, Property Management, revised October
                 15, 1999, was issued to establish and apply standards and procedures for using
                 and controlling property in accordance with applicable laws, regulations, and
                 authoritative guidance. The MD describes organizational responsibilities and
                 delegates authority to numerous agency executives. The MD includes an
                 associated Handbook 13.1, Property Management, which contains guidelines
                 and procedures to ensure that Government property is protected against waste,
                 theft, or misuse. Additionally, in November 2000, NRC distributed its Handbook
                 for Property Custodians,1 which contains additional responsibilities and guidance.
                 The Division of Contracts and Property Management (DCPM), Office of
                 Administration (ADM),
                 manages NRC’s property                  NRC Noncapitalized Equipment
                 management program,
                 including the property and
                 supply system (PASS).                11,000
                                                        Other
                 As of August 2000, PASS
                                                                                     16,000
                 contained records for more                                       Information
                 than 27,000 pieces of                                            Technology
                 noncapitalized equipment
                 with an acquisition cost of
                 approximately $75 million.
                 Of that total, noncapitalized information technology (IT) equipment is
                 approximately 16,000 pieces with an acquisition cost of approximately $51
                 million. PASS contains records for sensitive equipment,2 regardless of cost, and
                 nonsensitive equipment having an acquisition cost of at least $300. NRC
                 assigns a unique blue property tag number to all equipment recorded in PASS.
                 Although not entered in PASS, nonsensitive equipment with an acquisition cost


       1
           This is a separate Handbook from that contained in MD 13.1.
       2
          Equipment that is desirable for personal use and can be easily removed from the premises
(e.g., laptop computers, cell phones).



                                                    1
                                          Accountability and Control Over NRC’s Noncapitalized IT Equipment

               below $300 is assigned a red non-controlled NRC property tag. PASS calculates
               depreciation3 for noncapitalized IT equipment by dividing acquisition cost by a
               standard 5-year useful life. Once nonsensitive equipment has depreciated below
               a $300 threshold, it is no longer counted in physical inventories at headquarters.
               However, these records remain in PASS as long as the equipment is in use.


                                         Location of Noncapitalized IT
                                                  Equipment

                                           5,520
                                           Other



                                                                       10,480
                                                                        Headquarters




               NRC conducts physical inventories of property every two years (see chart above
               for location of 16,000 pieces of noncapitalized IT equipment) and periodically
               reviews each region’s property management program. Once an inventory is
               completed, DCPM reconciles all discrepancies or missing items with PASS.
               After reconciliation, the results are reported to NRC senior management.

               Property custodians (ranging in grade from GG-7 to GG-15), located in individual
               NRC offices, assist DCPM. Among other responsibilities, property custodians
               manage and control the property assigned to their accounts by: (1) updating
               records, (2) recovering property assigned to separating employees, (3) assisting
               in locating missing property, and (4) participating in official inventories.




       3
         This internal PASS computation is performed to determine the $300 physical inventory
threshold and is not related to depreciation for financial statement purposes.



                                                   2
                                          Accountability and Control Over NRC’s Noncapitalized IT Equipment


II. PURPOSE

               The objectives of the audit were to determine whether the NRC’s (1) policies
               governing the accountability and control over agency noncapitalized IT
               equipment4 adhere to applicable laws and regulations; (2) official database for
               property transactions reflects accurate information for noncapitalized IT
               equipment; and (3) property management program has adequate safeguards to
               deter and prevent loss through fraud, waste or misuse. Appendix A contains the
               scope and methodology of this review.




       4
         Noncapitalized IT equipment represents NRC IT property (either in the agency’s possession or
contractor-held) with an initial acquisition cost of less than $50,000.



                                                  3
                                           Accountability and Control Over NRC’s Noncapitalized IT Equipment


III. FINDINGS

                NRC’s property management policies for noncapitalized IT equipment adhere to
                applicable laws and regulations such as the Federal Property Management
                Regulations. The agency’s broad policies recognize the need for control
                systems to safeguard property. However, PASS is not reliable because it
                contains a high percentage of inaccurate information for noncapitalized IT
                equipment location and sensitivity designation. Also, NRC’s property
                management program needs improved safeguards because management
                controls either are inadequate or lacking. These conditions leave NRC
                equipment susceptible to loss from fraud or misuse.

        A. PASS DATA IS NOT ACCURATE

                Statistical projections show that PASS does not accurately reflect the location of
                as many as 3,571 items of noncapitalized IT equipment (at Headquarters and
                Region I) costing approximately $8.38 million. In addition, a secondary
                sensitivity indicator for noncapitalized IT equipment was inaccurate for 15
                percent of sensitive items (at headquarters with an acquisition cost of less than
                $10,000). The data is not accurate because PASS is not updated in a timely
                manner, accountability for property custodians is limited, and one account
                assigned to the Office of the Chief Information Officer (OCIO) is not adequately
                controlled. In addition, PASS does not have the appropriate edit checks to
                ensure the proper designation of sensitive items. As a result, (1) the system is
                unreliable and several users have developed costly unofficial supplemental
                property management systems (hereafter referred to as supplemental property
                systems); and (2) sensitive equipment is at increased risk from loss or theft.

                PASS Location Data

                The Joint Financial Management Improvement Program (JFMIP)5 and NRC
                internal guidance specifically address property accountability. In October 2000,
                the JFMIP issued Property Management Systems Requirements, which explains
                that capturing location is one function of a property management system.

                NRC Handbook 13.1, Property Management, explains that PASS serves as the
                official database for NRC property transactions and states:

                        It is the policy of the U.S. Nuclear Regulatory Commission to manage
                        and use property and supplies in its possession or its contractors’
                        possession effectively and efficiently and to provide sufficient controls to
                        deter or eliminate loss through fraud, waste, or misuse.

        5
          JFMIP is a joint undertaking of the U.S. Department of the Treasury, the General Accounting
Office, the Office of Management and Budget, and the Office of Personnel Management, working with
other agencies to improve financial management practices in Government.



                                                   4
                                                         Accountability and Control Over NRC’s Noncapitalized IT Equipment

                   Furthermore, ADM’s fiscal year (FY) 2000 and FY 2001 Operating Plans include
                   an effectiveness metric which requires that “All property in the PASS database is
                   accounted for.”

                   PASS, however, does not accurately reflect the location for many noncapitalized
                   IT equipment items. To assess location accuracy, the Office of the Inspector
                   General (OIG) selected statistical samples from headquarters, Regions I and II,
                   and two NRC contractors. Because NRC recently completed a physical
                   inventory of PASS equipment, OIG generally based sample sizes on an
                   anticipated error rate of no greater than 5 percent. OIG then inventoried the
                   sample items at these locations. Unlike NRC’s inventory, OIG’s sample included
                   nonsensitive equipment with a current value of less than $300. The sample
                   inventory results showed that the error rates for headquarters and Region I
                   exceeded the anticipated 5 percent rate.6 The results of the sample inventory
                   are summarized in the table below.


                                        Statistical Sample Inventory Results
                                                                                                        ERRORS

                                                                                                               UCL7 95%

                                            Lot                                                                                    Approximate
                                         Acquisition                                                                                Acquisition
                                          Cost in                                                                                    Cost8 in
                           Lot            Dollars         Sample           Number        Percent       Percent     Number            Dollars
 Location                  Size           (000's)         Size             of Errors     of Errors     of Lot      of Errors         (000's)

                             (A)             (B)            (C)               (D)        (E)=(D)÷(C)     (F)       (G)=(A) x (F)    (H)= (B) x (F)

 Headquarters < $10,000     10,186          $14,456          250                    66        26.4        31.0            3,158           $4,481

 Headquarters $10,000        294             6,507               14                4         28.6        54.0             159              3,514

 Region I < $10,000           800             1,180               50                11        22.0        31.6             253                373

 Region I  $10,000                16              475            16                1           6.3       N/A9            N/A9                1210




        6
            PASS could not be used to determine an item’s specific room location at Region II or at the two
contractors. Those locations maintain separate inventory systems to identify room locations within their
facilities.
        7
            UCL- Upper Confidence Limit
        8
            Represents the estimated acquisition cost associated with the projected number of errors in the
lot.
        9
            Since the entire population of 16 items was tested, a projection is not applicable.
        10
             Actual Acquisition Cost of the one error



                                                                       5
                                    Accountability and Control Over NRC’s Noncapitalized IT Equipment

In the table, “error” means that the item is not physically located in the building
and room number shown in PASS. At a 95 percent confidence level, the error
rate for the population (Headquarters < $10,000) can be as high as 31 percent,
which amounts to 3,158 errors with an associated acquisition cost of
approximately $4.5 million.

The following bar chart shows the sample results for headquarters and Region I.
The error rate for each of the four populations exceeded the 5 percent
anticipated error rate.


                          Results of OIG's Sample Inventory
                            at Headquarters and Region I
                                                                               6.3%
                     100.0%       26.4%          28.6%       22.0%
       % of Sample




                      80.0%
                      60.0%                                                93.7%
                                  73.6%          71.4%       78.0%
                      40.0%
                      20.0%
                       0.0%
                              Headquarters Headquarters Region I      Region I
                               < $10,000   > or = $10,000 < $10,000   > or = $10,000

                                       Noncapitalized IT Equipment

                                          Found     Not Found


The initial results of NRC’s FY 2000 inventory at headquarters showed a 20
percent error rate, which is similar to our sample results for headquarters.

       Equipment Is Missing From Mini-Warehouse

OIG’s sample inventory at headquarters highlighted problems with an IT
equipment storage area that serves as a mini-warehouse. Old and new IT
equipment frequently moves through the mini-warehouse as a result of
excessing and refresh activities. Because of the high activity in this room, OIG
conducted additional inquiries and tests that revealed numerous missing items.
Subsequently, the agency found some of the missing items. Photographs of the
mini-warehouse during the testing are presented on the next page.




                                             6
                                               Accountability and Control Over NRC’s Noncapitalized IT Equipment




              System Units Stored in OCIO’s mini-              Miscellaneous IT Equipment stored in
              warehouse                                        OCIO’s mini-warehouse


                   Results of additional testing showed that:

                           !        Eleven (11) laptop computers, reported in PASS as located in the
                                    mini-warehouse, were not found. Two of these laptops were
                                    subsequently found, leaving nine laptops (with an acquisition cost
                                    of $26,938) as still missing.

                           !        104 system units11 (with an acquisition cost of $327,441), reported
                                    in PASS as located in the mini-warehouse, were not found.

                           !        Thirteen (13) system units (with an acquisition cost of $19,794)
                                    were found in the mini-warehouse, but were not shown in PASS
                                    as located in the mini-warehouse.

                   As of February 27, 2001, PASS showed the mini-warehouse as the location for
                   526 items in an account assigned to the OCIO. NRC officials explained that a
                   CIO HOLD account12 was established in May 2000 as a holding account for
                   missing nonsensitive IT items. These items generally have a current value
                   below $300 and are not part of the agency inventory under MD 13.1. Upon
                   completion of the FY 2000 inventory, agency staff were to determine the status
                   of the missing items by locating the items or preparing Report of Property for
                   Survey forms (NRC Form 395).13 To date, this process has not been completed.


        11
             A system unit is occasionally referred to as a central processing unit.
        12
          The CIO HOLD account includes 50 of the 104 system units identified above as missing from
the mini-warehouse.
        13
           NRC Form 395 is used to determine financial liability, if any, for Government property that is
lost, stolen, or damaged. It is also used to authorize adjustments to property records to reflect such
occurrences.



                                                        7
                         Accountability and Control Over NRC’s Noncapitalized IT Equipment

       Accountability Of Property Custodians Is Limited

A property management official advised that property custodians do not update
PASS in a timely manner. Untimely updates to PASS result in inaccurate data.
Prompt execution of property transfers helps ensure the accuracy of location and
end user information in PASS. For example, three of the 11 laptop computers,
missing from the mini-warehouse, reportedly were identified in PASS awaiting
acceptance by a property custodian for a range of 107 to 129 days. An OIG
analysis of property custodians’ job descriptions, and elements and standards
revealed that most contain little or no language regarding property custodian
duties. Thus, accountability as property custodians is limited.

       Unreliable PASS Data Results In Supplemental Property Systems

Inaccurate location data diminishes the reliability of PASS, creates the perceived
need for supplemental property systems, and places NRC property at risk.
Several end users developed supplemental property systems because PASS is
unreliable and does not fully meet their needs. As a result, the agency maintains
at least five of these costly systems. Since these systems are not integrated
with PASS, each property transaction is recorded twice, and additional effort
would be required to reconcile PASS with the supplemental property systems.
Agency offices use these systems to verify PASS data, gain flexibility in
preparing reports, and maintain supplemental data.

NRC has established a Market Research Team to review upgrades and
alternatives to PASS. Accordingly, OIG gave the agency a list of offices with
supplemental property systems and encouraged NRC to include representatives
from these offices on the team.

Sensitive Equipment Designation

PASS does not accurately reflect the sensitive item designations of
noncapitalized IT equipment, as required by the Handbook for Property
Custodians. PASS sensitive item designations are inaccurate due to the
absence of appropriate controls. This condition jeopardizes accountability for
sensitive items, particularly at separation clearance time.

PASS contains two sensitive item designation fields. One field is based on a
sensitive indicator box, which is checked to indicate whether the item is sensitive.
Additionally, the Handbook for Property Custodians requires a secondary
designation, a SIH (Sensitive Item Holder) prefix, in the end user field. The
sensitive item designations should be consistent for both fields (i.e., a box
checked should be accompanied by the SIH prefix).

An OIG comparison of the two fields revealed a 15 percent error rate for
headquarters noncapitalized IT equipment having an acquisition cost of less than
$10,000. Of 579 items designated as sensitive (sensitive indicator box), 87



                                 8
                          Accountability and Control Over NRC’s Noncapitalized IT Equipment

items did not contain the SIH prefix in the end user field. Eighty-one of the 87
items not designated properly were laptop computers. OIG provided a listing of
the 87 errors to an ADM official. The secondary sensitive item designation is
inconsistent and incorrect because NRC has not implemented appropriate
controls, such as edit checks, to detect errors.

Property custodians use the SIH designation to determine if sensitive equipment
is assigned to a separating employee. Without the correct designation,
separating employees could leave the agency and not be held accountable for
sensitive equipment in their possession.

Summary

Location and sensitive item designation inaccuracies in PASS affect the reliability
of PASS data. Inaccuracies result because (1) accountability for property
custodians is limited and (2) controls regarding sensitive item designations are
inadequate or lacking.

Statistical projections show that as many as 3,571 items of noncapitalized IT
equipment at headquarters and Region I, costing approximately $8.38 million,
are not physically located in the building and room number shown in PASS.
Furthermore, 526 IT equipment items are missing from the OCIO mini-
warehouse. Inaccurate location information in PASS (1) can result in the
unnecessary purchase of equipment, and (2) is a contributing cause for the
creation of costly supplemental property systems.

Additionally, a comparison of the two PASS sensitive item designation fields
revealed a 15 percent error rate. The sensitive item designation errors place
accountability for sensitive items (including 81 laptop computers) in jeopardy,
particularly at separation clearance time. PASS inaccuracies (location and
sensitivity designations) result in a heightened potential for fraud or misuse of
agency equipment.


RECOMMENDATIONS

OIG recommends that the Executive Director for Operations:

1.     Institute the use of annual property confirmations by end users to help
       ensure the accuracy of PASS information.

2.     Coordinate with NRC offices to establish and implement consistent
       performance standards (i.e., Elements and Standards) for property
       custodian/alternate property custodian duties.




                                  9
                       Accountability and Control Over NRC’s Noncapitalized IT Equipment

3.   Include representatives from offices with supplemental property systems
     on the Market Research Team.

4.   Distribute this audit report to all property custodians and their alternates.
     The transmittal letter should emphasize the need to keep PASS
     information current and accurate.

5.   Develop an action plan with milestones to resolve equipment issues in
     the CIO HOLD account. Each item in the account should be located and
     PASS should be updated accordingly.

6.   Resolve all discrepancies identified in OIG’s sample inventory and tests
     of the mini-warehouse and provide the OIG with the status of each item.

7.   Design and implement appropriate quality controls to ensure the
     accuracy of sensitive item designations in PASS.

8.   Correct the 87 incorrect sensitive item designations in PASS.




                               10
                                            Accountability and Control Over NRC’s Noncapitalized IT Equipment

        B. PROPERTY MANAGEMENT PROGRAM NEEDS IMPROVED SAFEGUARDS


                  NRC’s property management program needs improved safeguards to deter and
                  prevent loss through fraud or misuse. Specifically, NRC’s management controls
                  are not adequate or are lacking in the following areas:

                          1.     Security Incident Reports,
                          2.     Separated employees’ PASS accounts,
                          3.     Separation of duties,
                          4.     Physical inventory procedures, and
                          5.     Handbook for Property Custodians.

                  These conditions result in a heightened potential for fraud or misuse of NRC
                  equipment and the unlikely recovery of missing agency property.

                  Security Incident Reports

                  MD 13.1 requires that NRC provide sufficient controls over its equipment to deter
                  or eliminate loss through fraud, waste or misuse. MD 13.1's Handbook requires
                  agency employees to initiate a Security Incident Report (SIR) when a theft (loss)
                  is suspected at headquarters.

                  Agency staff completed only four SIRs14 since January 1, 1999, even though 187
                  items were identified as missing. In October 2000, NRC reported 187 missing
                  items out of 18,402 items during its FY 2000 inventory.15 As of March 6, 2001,
                  70 of the 187 missing items were reportedly found, leaving a balance of 117
                  missing items (including 27 laptop computers). Additionally, the agency’s CIO
                  HOLD account created in May 2000, includes 526 missing items (not subject to
                  inventory) as of February 27, 2001.

                  In October 2000, OIG served as facilitator in a meeting attended by
                  representatives from DCPM, the Division of Facilities and Security, and the
                  Property Survey Board.16 Meeting attendees agreed that agency guidance
                  regarding lost or stolen NRC equipment is vague and requires revision. General
                  agreement was reached that ADM representatives, in coordination with
                  representatives of other interested offices, will rewrite the guidance in a simple,
                  easy to follow, process-oriented style. OIG representatives emphasized a direct

        14
           Security Incident Reports are used to report missing/stolen property and serve as the basis for
notifying the OIG of such matters.
        15
             DCPM conducted the FY 2000 inventory from June through August 2000.
        16
        A three-member Board that determines financial liability, or release from liability, of
accountable individuals for loss or damage to agency equipment.



                                                    11
                                           Accountability and Control Over NRC’s Noncapitalized IT Equipment

                correlation between the timeliness of notification and the likelihood of recovery of
                lost or stolen equipment. Without an SIR, neither OIG nor the agency can
                investigate lost or stolen property and recovery becomes unlikely. Many
                opportunities to recover missing agency equipment have been lost because SIRs
                were not prepared.

                Separated Employees’ PASS Accounts

                To determine whether open accounts exist for separated employees, OIG
                selected a judgmental sample of employees who separated during calendar
                years 1998 through 2000 (40 of 642). The test revealed that PASS contains
                open accounts for 29 of the 40 former employees (72.5 percent). Four of the 29
                accounts contain active PASS equipment. One of the four accounts is for an
                individual who separated in March 1999 and has 13 items in that account. The
                agency has since advised that it has initiated action to (1) remove the names of
                former NRC employees from PASS, and (2) locate and properly account for
                active PASS equipment in separated employees’ accounts.

                The internal controls in this area need improvement to ensure that the PASS
                System Administrator closes PASS accounts for all separated employees within
                a reasonable time of their separation. Open PASS accounts for separated
                employees also heightens the potential for fraud and misuse of agency
                equipment. Those accounts can be used to hide lost or stolen equipment.

                Separation Of Duties

                NRC has not adequately separated responsibilities for property management
                functions. These functions include inventory duties and a property custodian’s
                access to his/her own account. Separation of duties is a sound business
                practice and is required by U.S. General Accounting Office (GAO) standards for
                internal control. Inadequate separation of duties creates opportunities for fraud
                and misuse of agency equipment.

                GAO’s Standards for Internal Control in the Federal Government, November
                1999, provides that control activities17 include separation of duties. This control
                activity is described as follows:

                        Key duties and responsibilities need to be divided or segregated among
                        different people to reduce the risk of error or fraud. This should include
                        separating the responsibilities for authorizing transactions, processing
                        and recording them, reviewing the transactions, and handling any related


        17
         Control activities are the policies, procedures, techniques, and mechanisms that enforce
management’s directives. Control activities are an integral part of an agency’s accountability for
stewardship of government resources.



                                                   12
                         Accountability and Control Over NRC’s Noncapitalized IT Equipment

       assets. No one individual should control all key aspects of a transaction
       or event.

Thus, property system administration and inventory control responsibilities must
be adequately separated. The PASS System Administrator controls the key
aspects of PASS transactions, participates in the conduct of NRC’s physical
inventory, prepares inventory discrepancy reports, and prepares reports on
inventory results. As a result, the PASS System Administrator controls property
system records and can conceal the location of missing equipment during an
inventory.

Furthermore, property custodians should not have access to their own PASS
accounts, which contain equipment assigned to them. This access level, which
is not addressed in agency guidance, allows individuals the opportunity to
manipulate their own PASS records and conceal the location of missing
equipment.

Physical Inventory Procedures

NRC procedures do not require accountability for all property in PASS.
Although, ADM’s FY 2001 Operating Plan requires accountability for all PASS
property, approximately 6,900 equipment items are not controlled through the
inventory process. NRC Handbook 13.1, states:

       Once nonsensitive equipment has depreciated below the $300 threshold,
       it will no longer be part of the property base for purposes of inventory.
       However, as long as equipment is in use, the record will remain active in
       PASS.

According to DCPM, the FY 1998 inventory was the first inventory that used the
MD 13.1 guidance. PASS contains approximately 6,900 nonsensitive equipment
items that have been depreciated below the agency’s $300 threshold. Since
DCPM excludes these items from the physical inventory, this property is not
adequately controlled. For example, one OCIO property account includes 526
missing items, generally valued at less than $300 each.

Once equipment is no longer included as part of the physical inventory, there is
increased risk that the agency will lose control over such equipment. For
example, a system unit could be depreciated below $300 and would no longer be
inventoried.

Handbook For Property Custodians

The Handbook for Property Custodians and the NRC Handbook 13.1 contain
significant responsibilities and guidance for property custodians. However, NRC




                                 13
                        Accountability and Control Over NRC’s Noncapitalized IT Equipment

Handbook 13.1 contains responsibilities and guidance not contained in the
Handbook for Property Custodians.

Handbook 13.1, provides the following responsibilities and guidance that are not
found in the Handbook for Property Custodians:

       !      Assess available property and determine if it is fully used before
              certifying new property requests.

       !      Assist in locating missing equipment and providing purchase
              documentation for any non-tagged equipment.

       !      Additional responsibilities of regional property custodians:

              [       Provide to DCPM, copies of receiving documents (showing
                      model number, purchase date, and price) for NRC
                      equipment.

              [       Maintain custodial receipts (NRC Form 119) and records
                      of sensitive NRC property.

              [       Review appropriate excess property lists and recommend
                      acquisition of excess property in lieu of purchase.

Because the duties of property custodians are not consolidated in a single
document, the custodians may not be fully aware of or perform the full scope of
their responsibilities.

Summary

NRC’s property management program needs improved safeguards.
Management controls are inadequate or lacking in five areas: Security Incident
Reports, separated employees’ PASS accounts, separation of duties, physical
inventory procedures, and the Handbook for Property Custodians. As a result,
NRC’s noncapitalized IT equipment is susceptible to loss from fraud or misuse
and the recovery of missing agency equipment is unlikely.

RECOMMENDATIONS

OIG recommends that the Executive Director for Operations:

9.     Revise NRC Handbook 13.1 to clarify guidance regarding lost or stolen
       equipment, and clearly explain when a Security Incident Report is
       needed.




                                14
                       Accountability and Control Over NRC’s Noncapitalized IT Equipment

10.   Design and implement internal controls to ensure that the PASS accounts
      for separated employees are closed within a reasonable time of their
      separation from the agency.

11.   Ensure that active equipment listed in separated employees’ accounts is
      reassigned or properly disposed of and that PASS records are updated
      accordingly.

12.   Separate property management duties, in particular, inventory duties and
      a property custodian’s access to his/her own account.

13.   Include all nonsensitive equipment controlled in PASS (regardless of
      current value) in the property base for inventory purposes.

14.   Consolidate property custodian responsibilities and guidance from NRC
      Handbook 13.1 into the Handbook for Property Custodians.




                               15
                                   Accountability and Control Over NRC’s Noncapitalized IT Equipment


IV. OTHER RELATED MATTERS

    A. PROPERTY AND FINANCIAL MANAGEMENT SYSTEMS INTEGRATION

          The JFMIP publication, Property Management Systems Requirements, notes
          that “Financial management systems must be designed with effective and
          efficient interrelationships between software, hardware, personnel, procedures,
          controls and data contained within the systems.” Furthermore, it states that the
          design of such a system should eliminate unnecessary duplication of transaction
          entry.

          NRC is presently considering alternatives to PASS, which is not integrated with
          the agency’s financial system. This lack of integration results in duplicate
          transaction entry: all transactions (property) are either considered expensed or
          capitalized in PASS, and corresponding entries must also be made for the
          financial system. As NRC works toward replacing the current property
          management system, the time is opportune for the Office of the Chief Financial
          Officer and ADM to work together to define user needs and procure a system
          that has an efficient and effective interrelationship between the property and
          financial systems.

    B. STATUS OF REGION III’S PROPERTY MANAGEMENT CORRECTIVE ACTIONS

          In Region III’s November 2000, Reasonable Assurance Statement, the Region
          self-identified deficiencies in its property management program after an inventory
          disclosed 16 missing computers, including 12 laptops. To mitigate property
          management deficiencies, the Region prepared a corrective action plan. Region
          III staff stated that they are making progress toward implementing the plan. The
          Region issued a new Divisional Instruction (DI-9936), Property Management,
          with an effective date of December 29, 2000. Additionally, a revised Regional
          Procedure concerning property management was drafted and distributed to
          regional staff for comment, and heightened attention is being given to complying
          with property management policies. The Region is also in the process of filling
          the property custodian vacancy. Furthermore, headquarters has scheduled a
          physical inventory at Region III during FY 2001. Thus, reasonable action has
          been taken or is in process to resolve property management deficiencies at
          Region III.




                                           16
                                 Accountability and Control Over NRC’s Noncapitalized IT Equipment


V. CONSOLIDATED LIST OF RECOMMENDATIONS

        OIG recommends that the Executive Director for Operations:

        1.     Institute the use of annual property confirmations by end users to help
               ensure the accuracy of PASS information.

        2.     Coordinate with NRC offices to establish and implement consistent
               performance standards (i.e., Elements and Standards) for property
               custodian/alternate property custodian duties.

        3.     Include representatives from offices with supplemental property systems
               on the Market Research Team.

        4.     Distribute this audit report to all property custodians and their alternates.
               The transmittal letter should emphasize the need to keep PASS
               information current and accurate.

        5.     Develop an action plan with milestones to resolve equipment issues in
               the CIO HOLD account. Each item in the account should be located and
               PASS should be updated accordingly.

        6.     Resolve all discrepancies identified in OIG’s sample inventory and tests
               of the mini-warehouse and provide the OIG with the status of each item.

        7.     Design and implement appropriate quality controls to ensure the
               accuracy of sensitive item designations in PASS.

        8.     Correct the 87 incorrect sensitive item designations in PASS.

        9.     Revise NRC Handbook 13.1 to clarify guidance regarding lost or stolen
               equipment, and clearly explain when a Security Incident Report is
               needed.

        10.    Design and implement internal controls to ensure that PASS accounts for
               separated employees are closed within a reasonable time of their
               separation from the agency.

        11.    Ensure that active equipment listed in separated employees’ accounts is
               reassigned or properly disposed of and that PASS records are updated
               accordingly.

        12.    Separate property management duties, in particular, inventory duties and
               a property custodian’s access to his/her own account.




                                         17
                       Accountability and Control Over NRC’s Noncapitalized IT Equipment

13.   Include all nonsensitive equipment controlled in PASS (regardless of
      current value) in the property base for inventory purposes.

14.   Consolidate property custodian responsibilities and guidance from NRC
      Handbook 13.1 into the Handbook for Property Custodians.




                               18
                                Accountability and Control Over NRC’s Noncapitalized IT Equipment


IV. AGENCY COMMENTS

        At an exit conference on May 22, 2001, NRC officials stated general agreement
        with the report’s findings and recommendations. They also suggested several
        report revisions which were incorporated where appropriate.




                                        19
       Accountability and Control Over NRC’s Noncapitalized IT Equipment




[Page intentionally left blank.]




               20
                                                                                              Appendix A
                                        Accountability and Control over NRC’s Noncapitalized IT Equipment


SCOPE AND METHODOLOGY

              To accomplish the audit objectives, the Office of the Inspector General (OIG)
              reviewed and analyzed pertinent laws, regulations, authoritative guidance, and
              prior U. S. Nuclear Regulatory Commission (NRC) OIG and U. S. General
              Accounting Office reports. In addition, OIG identified, analyzed and compared
              NRC guidance with the aforementioned criteria. OIG conducted interviews with
              selected NRC officials to gain an understanding of NRC’s property management
              guidance and to determine current issues, problems, or known deficiencies. At
              NRC headquarters, OIG interviewed personnel in the Offices of Administration,
              Human Resources, Chief Financial Officer, Chief Information Officer, Nuclear
              Materials Safety and Safeguards, Nuclear Reactor Regulation, Nuclear
              Regulatory Research, and the General Counsel. OIG visited two Regional
              offices and two contractors. We also interviewed personnel from all four
              Regions.

              OIG conducted tests to determine whether location and sensitive item
              designation information maintained in the property and supply system (PASS) is
              accurate. OIG selected a stratified random sample of noncapitalized information
              technology equipment from PASS to physically verify location. OIG further
              tested PASS location data for items (laptop computers and system units) located
              in a mini-warehouse.1 Additionally, OIG compared selected data to determine
              whether there is consistent designation of sensitive property in PASS.

              Management controls related to the audit objectives were reviewed and
              analyzed. Throughout the review, auditors were aware of the possibility or
              existence of fraud, waste or misuse in the program. OIG conducted the audit in
              accordance with Generally Accepted Government Auditing Standards from
              August 2000 through March 2001.

              The major contributors to this report were Anthony Lipuma, Team Leader;
              Steven Zane, Audit Manager; Michael Steinberg, Senior Auditor; and Debra
              Lipkey, Management Analyst.




    1
        The mini-warehouse is located in room O2A1 at headquarters.



                                               21
